HHS/OIG-Audit--"Review of Prompt Payment Reporting for Fiscal Year 1990, (A-12-90-00044)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Prompt Payment Reporting for Fiscal Year 1990," (A-12-90-00044)
February 5, 1992
Complete
Text of Report is available in PDF format (148 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our review of the Division of Accounting
Operations' (DAO) compliance with the reporting requirements of the Prompt Payment
Act (Act), Public Law 97-177. We concluded that DAO's report to the Office of
Financial Policy was generally accurate and complete. The few errors that we
found were not materially significant to affect the content of the FY 1990 report.